                                  " "   . '"




                         PERSPECTIVES OF DRUG

                            MANUFACTURERS


                    ABBREVIA TED NEW DRUG APPLICA TIONS




      t\lVICE$'
                  CtJ'




'0


     1t"dIQ



OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALVA TION AND INSPECTIONS
                                                     FEBRUARY 1990
                     PERSPECTIVES OF DRUG

                        MANUFACTURERS

                     ABBREVIATED NEW DRUG APPLICATIONS





                              Richard P. Kusserow
                              INSPECTOR GENERAL




OEI- 12- 90- 00770                                   FEBRUARY 1990
                                                                                ...           , "





                                  EXECUTIVE SUMMARY


 PURPOSE
The purpose of this report is to describe the perspectives of selected drug manufacturers
regarding the Food and Drug Admnistration s (FA) review of market applications for
generic products. This is one of several reports being issued by the Offce of Inspector
General (OIG) in connection with FDA' s approval of generic drgs.

This report contains the accounts of manufacturers regarding their experiences and opinions of
FDA' s review of market applications for generic products. For maximum benefit, the reader
should consider this information along with the results of independent analysis conducted by
the OIG regarding FDA' s approval of generic products.



BACKGROUND

Under the Federal Food, Drug, and Cosmetic Act (" the Act ), as amended, the FDA , U.
Deparent of Health and Human Services, is responsible for approving new drgs before
they can be marketed in the United States. The Act defines a new drg as " any drg
(that).. .is not generally recognized... as safe and effective under the conditions prescribed
recommended, or suggested in the labeling.... " (21 U. C. section 321.) The FDA is charged
with ensurng that the drgs it approves are both safe and effective for its intended uses.

New drgs    include both " innovator   " drgs and " generic "   drgs. Innovator drgs, or   drgs
newly discovered, are generally developed under patent by the manufactuer. Generic drgs,
or copies of drgs curently on the market, are developed by competitors after a patent has
expired , or if the innovator patent wil not be infringed or is invalid. Unless a suitability
petition has been approved exempting the manufacturer from this requirement, generic drgs
must contain the same active ingredients and be manufacturd in the same strength and dosage
form as the innovator drg.


METHODOLOGY

To assess manufacturers ' perspectives regarding FDA drg approval , the OIG invited 24 firms
to discuss their experiences with , assessments of, and suggestions for improving FDA drg
approval. All 24 firs agreed; the firms paricipating in the study are listed in appendix A.

Of the 24 firms listed, representatives of 16 discussed their professional experiences with the
generic drg approval process. The results of those discussions are described in this report.
   FINDINGS



                    Virally   all of the manufacturers we interviewed
                                                                        consider FDA effective in
                    ensuring that drugs entering the marketplace are safe and effective. At the
                    same time, the respondents were generally critical of FDA's drg approval
                    process for generic products-much more so than the respondents we
                    interviewed concerning FDA' s approval of innovator drgs.




 For each of the following, a majority of respondents in our surey believed that:

              FDA is ineffective in ensuring that safe and effective drugs enter the market in a timely
              manner;

              FDA provides inadequate guidance on how to develop and submit a successful ANDA;

              communication between the Agency and industry regarding ANDAs is often inadequate
              ineffective, or untimely;

          FDA is inconsistent when reviewing ANDAs and making decisions;

          FDA provides insuffcient justifcation for the decisions it makes on ANDAs;

          it is difcult to appeal decisions made by the Agency on ANDAs; and

          there is inadequate stafng at FDA , or ineffcient use of staff to deal with the current
          workload of ANDAs.



Respondents   disagreed on whether two recent FDA initiatives, establishing the Offce of
Generic Drugs and creating an FDA Ombudsman , would help address the concerns they
discussed. Respondents did believe, however, that FDA should continue sampling drgs on
the market, to ensur the quality of drgs sold to consumers. Finaly, respondents  suggested
changes in FDA generic drug approval.
AGENCY COMMENTS,


The OIG briefed FDA offcials on the findings and manufacturer recommendations from this
surey. The FDA offcials provided a number of clarfying technical comments to the report.
A copy of the Agency s comments regarding the results of the survey and our briefing are
attached at appendix B.
                       . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ..      . . . . . . .... .. .. .. .. .. .. .. .. .. .. . . .
                                                                                                          .. .. ... ... .. .. . . . . . . .




                                                           TABLE OF CONTENTS
EXECUTIVE SUMMARY

INTRODUCTION

         Purpose                  . . . . . . . . . . . . . . . . . . . . I . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




         Background.                                                                                                                          . . . . . . . . . . . . 1



         Methodology

FINDINGS

ENDNOTES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

APPENDIX A

         LISTING OF PARTICIPANTS. . . . . . . . ..                                                                                                             A-1

APPENDIX B

         AGENCY COMMENTS.. .. .. .. .. .. .. .. .. .. .. .. .. .. . .. .. .. .. B­
                                                                              ...




                                      INTRODUCTION



PURPOSE
The purose of this report is to describe the perspectives of selected drg manufacturers
regarding the Foo and Drug Admnistration s (FA) review of market applications for
generic products. This is one of several reports being issued by the Office of Inspector
General (OIG) in connection with FDA' s approval of generic drgs.

This report contains the accounts of manufacturers regarding their experiences and opinions of
FDA' s review of market applications for generic products. For maximum benefit, the reader
should consider this information along with the results of independent analysis conducted by
the OIG regarding FDA' s approval of generic products.



BACKGROUND

Under the Federal Foo, Drug, and Cosmetic Act (li the Act ), as amended, the FDA , U.
Deparent of Health and Human Services, is responsible for approving new drgs before
they can be marketed in the United States. The Act defines a new drg as " any drg
(that).. .is not generally recognized... as safe and effective under the conditions prescribed,
recoriended, or suggested in the labeling.... " (21 U. C. section 321.) The FDA is charged
with ensurng that the drgs it approves are both safe and effective for its intended uses.

New drgs include both " innovator"   drgs and " generic "   drgs. Innovator   drgs, or drgs
newly discovered, ar generally developed under patent by the manufactuer. Generic drgs,
or copies of drgs currently on the market, ar developed by competitors after a patent has
expird, or if the innovator patent wil not be infringed or is invald. Unless a suitability
petition has been approved exempting the manufacturer from this requirement, generic drgs
must contain the same active ingredients and be manufactured in the same strength and dosage
form as the innovator drg.

Until its patent expires, the manufacturer of the innovator drg enjoys a virual monopoly in
manufacturg and sellng its patented invention. Manufacturers of the generic version of the
drg generaly price their product lower than the innovator firm s product to compete with
other manufacturrs producing generic versions of the drg and the innovator firm. The lower
cost of generics can make them attractive to cost-conscious health care consumers and
third- pary payors.
 The   1984   Drug Price Competition and Patent Restoration Act

In 1984 , the Congress passed the Drug Prce Competition and Patent Restoration Act, which
amended the Act. Among other things, this law stramined the requirements for approving
generic products.

Pror to passage of the Drug Prce Competition and Patent Restoration Act , manufacturers
seeking to market a generic version of drg marketed between 1938 and 1962 could submit an
abbreviated application to FDA to obtain approval of their product. Manufacturers seeking
approval of generic versions of drgs marketed after 1962 were requird to submit
application to FDA to demonstrate that the active ingredients in their product were both safe

and effective, based either on their own clinical trals (described in a New Drug Application

(NDA)) or on the basis of published reports of well-controlled studies (described in a "paper

NDA"


The Drug Prce Competition and Patent Restoration Act alowed manufacturers to submit an
Abbreviated New Drug Application (ANDA), rather than an NDA or "paper NDA" to obtain
approval of the generic version of a drg marketed after 1962 , as well as those marketed
between 1938 and 1962. Since the generic contais the same active ingredients previously
demonstrted safe and effective to the FDA by the innovator, Congrss reasoned that there
was no need for retesting. Rather, Congress required manufacturers of generic drgs to
demonstrate that their product worked in the same way in the body as the innovator
drg-  in other words, that it is " bioequivalent.

The ANDA differs from the NDA in that the manufacturr is not required to conduct and
report results of animal and human clinical trals to demonstrate the drg s safety and
effectiveness. Instead, the manufacturer must include data in the ANDA to demonstrate that
(1) the generic drg contans the same active ingredients as the innovator product; (2) the
generic drg is identical in strength, dosage , and route of admnistration as the innovator
product; and (3) the generic drg is bioequivalent to the innovator product. l (21 U.
355G)(2)(A). Because the manufacturer of a generic drg does not have to conduct the more
costly and time consuming clinical trals required of the innovator fInn, ANDAs are less
costly for manufacturers to prepare and submit to FDA than NDAs.

Not surprisingly, FDA experienced a substantial surge in the number of ANDAs submitted to
the Agency after passage of the 1984 law. According to FDA testiony before the
Subcommttee on Oversight and Investigations, Committee on Energy and Commerce , the
Agency has seen a theefold increase in number of both original ANDAs (those ANDAs
submitted for the first approval of the manufacturer s generic) and supplemental ANDAs
(those AND As submitted to obtain approval in a change in manufacturing, labeling, or other
aspect of the production and marketing of the drg) submitted to the Agency since 1984.
 Submitting and Reviewing ANDAs

 When manufacturers submit an ANDA for FDA' s review and approval, it must contain certain
 information. Recently FDA has issued a Proposed Rule which would implement the 1984
 law. The FDA proposed that ANDAs submitted to the Agency include, among other things,
 the following: (1) an application form , containing identifying data such as the name and
 address of applicant, a statement of how the drg wil be marketed, and the signature of an
 authorized offcial; (2) a discussion of the basis for the ANDA; (3) a discussion of conditions
 of use; (4) a listing of active ingredients of the drg; (5) a discussion of the route of
 admnistration , dosage form , and strength; (6) bioequivalence data; (7) a chemistr,
 maimfacture, and controls section , describing the composition , manufactur, and specification
 of the drg substance and the drg product; and (8) proposed labeling. (54 Fed. Reg. 28,
                                                                                           872
 28, 921 (1989) (to be codfied at 21 CFR 314. 94) (proposed July 10, 1989).

Once an application is submitted, FDA has 180 days to review an application and send the
applicant either an " approved" letter, an " approvable " letter, or a " not approvable " letter. This
180- day period is referrd to as the "review clock."

An " approval" letter means a wrtten communication to the application from FDA approving
an application. Only after receiving an " approval" letter from FDA may a manufacturer
market the drg that is the subject of the application. An " approvable " letter means a wrtten
communication statig that the Agency    wil approve the application if certain conditions are
met (such as changes in the manufacturing controls). A " not approvable " letter means that the
Agency does not consider the application approvable due to deficiencies identified in the
application.

During review, communication takes place between FDA and the applicant. Industr officials
may request meetings with the Agency if such requests are made in advance and an agenda is
agreed upon. The FDA offers an " end-of-review " conference to applicants after they receive
an " approvable " or " not approvable " letter to discuss what steps the manufacturer must take to
get the application approved.

Once an application is approved, certain changes may be made by the manufacturer in the
course of manufacturing and marketing the drg. Depending on the type of change made
(e. g., changes in drg substance or drg product that affect performance versus editorial
change in labeling) the manufacturer must either submit (1) a supplement requirng FDA
approval before changes can be made; (2) a supplement describing changes to FDA that have
aleady been made; or (3) a description of the types of changes made in the next annual report
to the Agency. Only information relating to the change must be included in the supplement.
Recent Concerns Regarding FDA Review of ANDAs

In the past year, substantial ,criticism has been directed at the FDA generic drg approval
                    Subcommttee on Oversight and Investigations, Commttee on Energy
process. In 1988, the
and Commerce, U. S. House of Representatives, based on information it received from a
generic drg manufacturer, asked the Offce of Inspector Genera (OIG) and the United States
Attorney to conduct an investigation into allegations of favoritism on the par of certn FDA
offcials responsible for reviewing and approving ANDAs. The OIG' s investigation resulted
in corrption charges and criminal convictions of three former FDA employees, three generic
drg company offcials, and two generic drg fis.


In the wake of the corrption charges, FDA began to target, review and test generic drg
products and related ANDAs in an effort to ensure the integrty of these products. This review
disclosed manufacturing deficiencies and fraud involving a number of generic drg firms and
their products. Where fraud appeared likely, the FDA with the assistace of the OIG initiated
additional criminal investigations which ar continuing.

In August 1989, the OIG completed an audit of the generic drg approval program to identify
weakesses and vulnerabilties in the system which gave rise to the problems discussed above.
The OIG audit team found, among other things, that FDA lacks adequate guidelines to ensure
the consistent review of applications and needs a quality control system to ensure that
applications are properly reviewed and that generic drg fIrms receive equitable treatment.

Thrughout 1989, there was an unusualy high level of media and press attention devoted to
concerns about the generic drg approval process. Reports appearng in major national
newspapers and the pharaceutical trade press in August and September 1989 (the time of our
survey) focused on the corrption allegations and subsequent investigations undertaken by the
FDA and OIG; the OIG audit fmdings and recommendations; and FDA' s response, described
below, which included procedural and organizational changes and product testing and site
inspections affecting a large segment of the generic industr.

FDA Response to Concerns

In response to allegations of favoritism publicized by the Subcommittee, FDA conducted an
internal assessment of the ANDA process in 1988. Among the reforms initiated as a result of
this review were new procedures limiting and formalizing contacts between industr and
reviewers. Industr representatives are no longer allowed to make unannounced visits;
meetings are now held away from reviewer work space; and Consumer Safety Offcers , rather
than reviewers, answer cals from firs concerning the status of applications.

In 1989, FDA took additional steps to corrct the opportunities for abuse in approving generic
drgs and to reestablish public confidence in the safety of generic drgs. These steps included:
               establishing a new Offce of Generic Drugs under a new management team;

               creating an ombudsman in the Office of Commssioner to mediate disputes
               between FDA and the firms it regulates;

               targeting, reviewing and testing generic drg products and related ANDAs; and

               conducting an internal audit of the generic drg approval process in accordance
               with the Federal Managers ' Financial Integrty Act of 1982 (FMFIA).

 METHODOLOGY

 To assess manufacturers ' perspectives regarding FDA drg approval, the OIG invited 24 firms
 to discuss their experiences with, assessments of, and suggestions for improving FDA
                                                                                        drg
 approval. All 24 firs agreed; the firms paricipating in the study are listed in appendix A.

 Of the 24 firms listed, representatives of 16 discussed their professional experiences with
 the generic drug approval process. The results of those discussions are described in this
 repor .

Previous work done by the Offce    of Planning and Evaluation , Offce of the Commssioner
FDA , formed the framework for conducting this study. Pror studies titled Agency Impact
Analyses (AlAs) examned the effect of FDA practices and procedures on a regulated
                                                                                       industr
by collecting and analyzing the perspectives of executives of some of the regulated firms.

About the Interviews

The firms invited to paricipate in the OIG interviews were selected to ensure approximately
equal distrbution of firms experienced in generic drg and new
                                                                drg approval.    Respondents
from seven fmns had experience with both processes. Manufacturers interviewed were
concentrated in New York , New Jersey, and Pennsylvania, although interviews also took place
with manufacturers in Colorado, Delaware, Illinois, Ohio, and West Virginia.

Generaly interviews were conducted with the chief executive offcer
                                                                      , president, and/or
regulatory afais director and staff of the fmns selected. A total of 49 individuals were
interviewed. The 24 firms visited durng the course of our study had by their own estimation
submitted in excess of 450 investigational new drg applications, 150 new
                                                                             drg applications
and well over 1, 00 abbreviated new drg applications and abbreviated antibiotic
applications in the past 5 years.
                                                                                    drg

Interviews were conducted in August and September, 1989. To conduct the interviews, all of
which were conducted in person , the OIG used a strctued discussion guide
respondents about their experiences and opinions regarding varous aspects
                                                                             askig
                                                                            of application
review and approval. Respondents were asked  how they view guidance from the agency,
communication with the agency, review of applications by the agency, and decision-making
by the agency.

Because the manufactuers selected do not necessarly reflect a representative sample of all
manufacturers, their views mayor may not constitute a consensus opinion of all
manufacturers. In addition, the OIG study team did not attempt to veriy or validate the
legitimacy of claims or concerns expressed by the fIrms. Consequently, we do not
recommend specific action to the FDA based on the results of these interviews. Rather, we
have presented the recommendations made by the manufacturers interviewed for FDA'
information and consideration.
                                                                 FINDINGS


              Virually all of the manufacturers we interviewed              consider FDA effective in
              ensuring that drugs entering the marketplace are safe and effective. At the
              same time, the respondents were generaly critical of FDA' s drg approval
              process for generic products-much more so than the respondents we
              interviewed concerning FDA' s approval of innovator drgs.



For each of the following, a majority of respondents in our surey believed that:

          FDA is ineffective in ensuring that safe and effective drugs enter the market in a timely
          manner;

          FDA provides inadequate guidance on how to develop and submit a successful ANDA;

          communication between the Agency and industry regarding ANDAs is often inadequate,
          ineffective, or untimely;

          FDAis inconsistent when reviewing ANDAs and making decisions;


          PDAprovides insuffcient justifcation for the decisions it makes on ANDAs;


          it is difcult to appeal decisions made by the Agency on ANDAs; and


          there is inadequate staffng at FDA, or ineffcient use of staff to deal with the current

          workload of ANDAs.



Respondents   disagreed on whether two recent FDA initiatives, establishing the Offce
Generic Drugs and creating an FDA Ombudsman, would help address the concerns they
discussed. Respondents did believe, however, that FDA should continue sampling drgs on
the market, to ensur the quality of drgs sold to consumers. Finaly, respondents   suggested
changes in FDA generic drug approval.

Each of these findings is discussed in more detail below.

Respondents believe that FDA is effective in ensuring that drugs entering the marketplace
are safe and effective.

Fifteen of the 16 respondents who had experience with the generic drg approval process felt
that FDA does an effective job in ensuring that drgs entering the market are safe and
                            ,"                          , "
                        " "




  effective. Most of the respondents felt that such assurance was FDA's
                                                                         charer or mandate and
  that the Agency took no shortcuts in meeting its obligations. "Lok at
                                                                          the record," one
  manufacturer said. " With very few exceptions there have been no catastrophes.
                                                                                       I don
  quarel with the end result," said another respondent
                                                         just the way they get there.
  Respondents viewed FDA as tang a " no risk" policy: " the process rewards people for
  creative ways of assurng that the most strgent standards ar (imposed).

 For these reasons , most respondents (10) also believe that FDA review of ANDAs is thorough.
  The review is very detailed " said one respondent. " Reviewers are known for
                                                                                lookig for
 uncrossed t s and undotted i' " Other respondents saw the results as proof of thoroughness:
  So far (we) haven t found anything that was grossly missed.

 At the same time, respondents belreve that FDA is ineffective at ensuring that safe and

 effective drugs enter the marketplace in a timely manner.


 Ten of 16 respondents thought that FDA was ineffective in ensuring that safe and effective

 drgs enter the marketplace in a timely manner. Many attbuted this lack of timeliness to

 FDA's emphasis on safety: " Timeliness isn t one of FDA' s priorities," said one respondent.
  (FDA) is much more concerned with (keeping) a bad product (off) the market... The

 commssioner says one priority is to cut the backlog but reviewers are more concerned with

 makng a mistake. " Some respondents argued for a change in orientation by the agency:

  FDA should help us get approval , not prevent or deter manufactuers
                                                                        (from getting our

 applications approved), " said one respondent.


Some respondents were perplexed that certn pars of the review that appear straightforward

to them take, in their view, too much time. For example, the manufacturers we interviewed

were critical of the time required to review and approve labels.


Respondents believe that the Agency provides inadequate guidance on how to develop a

successful ANDA.


Nine of the 16 manufacturers interviewed believe that the guidance provided to them by the
Agency on how to develop a successful ANDA is " inadequate. " Manuf?Ctuers
                                                                                   expressing
this opinion argued that they needed more direction from the Agency in the form of standards
and specifications before developing their ANDA. One respondent echoed the sentiments of
several others when he said We need the blueprint ahead of time.
                                                                    " Several manufacturers
pointed to the standards and specifcations that exist for approving antibiotics as an
                                                                                      example
of the kind of guidance they would like to see for all generic products: "
                                                                           We want to see the
codfication of specifications and required method of testing, as it exists for antibiotics.
                                                                                            If we
have to meet a certai standard of testing, tell us what the
                                                            stadard is in advance of our
submission and work.



Even those respondents who viewed FDA guidance as adequate voiced concerns regarding
FDA' s inconsistency in applying the guidance. As one respondent said, " The guidance is
                       " "                                                             , '




adequate, just inconsistent... You ve got a regulation that is three sentences long that says,
 You ll do it right,' and hundrds of people interpreting what that means. " Another respondent
who considers FDA guidan e adequate added, " The regulations are pretty
straightforward-but there are different requirements from diferent (FDA) divisions.
Sometimes you wouldn t believe it s the same Agency.

For this reason , more respondents said that they rely primarly on previous experience
developing ANDAs (8) than regulations (3), guidelines (1), or discussions with FDA staff (3).
Several respondents said that they review FDA comments made to previous submissions,
evaluate those comments, and remember them in makng their next submissions. These
respondents added that they specifically tailor their submission to the division and reviewers
assigned to the application. " Requirements var , from reviewer to reviewer " one respondent
claimed. Another respondent said he said he considered guidelines irelevant: " Ignore the
guidelines and listen to what the individual chemist wants.

Respondents believe that communication between the Agency and industry is often
inadequate, ineffective, or untimely.

Most manufacturrs (10) felt it is diffcult to fmd out the progrss of review or the status of an
ANDA. Respondents expressing this opinion were frustrated by their lack of access to
reviewers as a result of the new FDA policy requirg applicants to contact Consumer Safety
Officers (CSOs) rather than reviewers concerning their application. " s turning into a bad
scene; what used to be a relatively informal process (of caling reviewers directly) is now very
formal (caling Consumer Safety Offcers). " One respondent said, "We can t call reviewers,
we can t meet with them... .It s impossible to fmd out the status of a review. We re told I can
only tell you the review is in progress.' Consumer Safety Officers are hard to reach , don
return phone calls, and don t have a lot to say to us when they do.

Several respondents believed that communication has deteriorated in recent months. " In the
past (communication) was spotty, " said one respondent. " Now communication is nonexistent.
  s lie somebody put up a brick wal around the Agency. " Another respondent echoed this
sentiment: " (Finding out the status and progress of review) was very easy before the scandal.
Now it is very diffcult.

Most of the manufacturers we interviewed had not attended " end-of-review " conferences in
connection with ANDAs, although several had done so in connection with NDAs. Many
the manufactuers were not aware that such meetings took place in connection with generic
drg review. However, some of the manufacturers we interviewed had requested meetings
with FDA at varous stages in the review of their applications; one respondent thought these
meetings were " granted reluctantly " and another who had requested numerous meetings said
he often received the response, "Do you want a meetig or do you want an approval?"
Two manufacturers specifcally expressed concern regarding their inabilty to obtain
information from FDA on the " alert list, " which they described as a listing of manufacturers
with outstanding deficiencies in manufacturing plants. According to these respondents, a
manufacturer s presence on the FDA' s " alert list " means that no ANDAs could be approved
for that company until deficiencies were corrected. However, these offcials maintained that
companies on the " alert list" were not told they were on the list and given an opportnity to
appeal the decision or move to quickly correct their deficiencies.

Respondents believe that FDA is inconsistent when reviewing ANDAs and making its
decisions.

The lack of consistency in review was a foremos concern of many respondents. Twelve of
the 16 respondents considered FDA review of applications inconsistent, citing differences
between reviewers and divisions in the amount and nature of information they require and the
importance they attach to varous aspects of the application. Respondents sharng this opinion
believed that inconsistency occurred due to a lack of standard operating procedures for
reviewers to use in assessing ANDAs. " Different reviewers have diferent requirements, they
emphasize different things, " said one respondent. " It becomes a game. " Another respondent
thought that " you could submit the same fie to two diferent reviewers and get two different
decisions (based on their review).... Different decisions ar made on diferent applications with
the same data. " Some respondents blamed this inconsistency on poor management of
reviewers. " FDA runs from the bottom up, not from the top down " one respondent stated.


A majority ofrespondents (10) also believed that review of ANDAs was not well- planned.
These respondents complained that they would receive a deficiency letter with certain
problems identified and then receive subsequent deficiency letters listing more FDA concerns.
These respondents were frstrated that all deficiencies were not identifed sooner in the
process. In addition , some respondents thought that FDA contrdicted or repeated itself by
asking the same question in one letter that it did in another; or by asking a question the
manufacturer believed was obviously addrssed in the application; or by askig for a change
and later asking for another change back to the original position. In paricular, manufacturers
we interviewed pointed to chemistr review and labeling review as inconsistent and
il- planned.
Respondents believe that the Agency provides insufficient justification for decisions it
makes on ANDAs.

Most respondents (11) have been dissatisfied with the decisions FDA has reached regarding
the ANDAs they have submitted. Respondents expressing this view thought that "
justification was presented for decisions " or " the decisions are very close to being arbitrar
and unrasonable. " Several respondents emphasized that they believe some FDA decisions on
ANDAs lack scientific merit: " Small percentage differences can result in one application
being approved and another (deemed) not approvable. Is (a certn percentage) goo and
(another percentage) bad? FDA can t say. " Another respondent said, "We don t argue with
(the justification), ' Science dictates you have to do this.' But that s not what we hear.... (We
hear), ' Because I said so.

Some respondents were also unclear about how policy decisions were made in FDA , or what
constituted Agency policy. They are unhappy that " changes in policy ar transmitted in an
ANDA letter" where " we have no chance to comment on it. " One respondent said, "FDA is
implementing new requirments without input from industr, and some appear to lack
scientific merit. When these requirements (are communicated), it is diffcult to tell what
represents Agency policy and what represents an individual reviewer s ' whim. ' Nor is it easy
to tell if the new requirment is the result of a passing conversation with an academician or an
intensive 5- year study.



Respondents consider it difficult to appeal decisions made by the Agency on ANDAs.

Few respondents had ever formally complained to the Agency regardig the issues they
discussed with us or concerning specifc problems with specific ANDAs. These respondents
had not done so priary because they feared retaiation , believing "FDA has a long.
memory. " One respondent who had made a complaint to the Agency had felt that his
company paid a price: " While the submission was approved, it created future problems
because of the resentment that somebody went over (the reviewers ) heads to the director.
Other respondents who complained or appealed decisions were frustrated by the Agency
response. " The meeting (held) as a result of our complaint was not open but defensive, " said
one respondent. Another respondent said that his company had not "received a response up
the ladder. " Yet another offcial lamented, " There really is no tre appeals process.

Respondents believe that there is inadequate staffng at FDA , or inefficient use of staff, to
deal with the workload of ANDAs.

While respondents had varing opinions on the qualifications, competence, dilgence, and
fai-mindedness of FDA staf with whom they work on ANDAs, they pointed to a lack of
resources or ineffcient use of resources as reasons for a lack of timeliness and consistency in
ANDA review. " They don t have enough people, " one respondent said. " They need more
clerical staf" thought another respondent.
Some respondents thought FDA could be more effcient in using its staf or organizing its
review. Several respondents thought the Agency should take more advantage of field staff in
conducting portons of the review: " They don t go to laboratories or plants as par of their
review. They underutilze their field staf, one of their best assets, who have more hands-on
experience." Another respondent who thought the review of ANDAs could be accomplished
more effciently by avoiding the duplication of work said: " FDA works hard but not smar.
(We had) one experience where a reviewer approved one application with one drg master
fie. Then he moved to review our (application) next. Our application had the same drg
master fie, but the reviewer re-reviewed it allover again. " Other respondents thought there
should be more communication and interaction between the staff which reviewed the NDA for
                                                                                       ,,""




   the innovator product and the staf which reviews the applications for the generic equivalent
   to create and share expertise on simlar products; in fact, one respondent believed that FDA
    should co- locate the staf and
                                   make the same reviewers responsible for review of applications
   for both generic and innoyator products of the same type. Finally, respondents
   to what they see as management problems: "                                      agai pointed
                                                There is no management control of FDA
   reviewers. "

  Respondents disagreed on whether two recent FDA initiatives
  Generic Drugs and creating of an FDA ombudsman, would help , establishing
                                                                 address theofconcerns
                                                                               the Office of
                                                                                       they
  discussed. Respondents did believe, however, that the
                                                         FDA should continue sampling drugs
  on the market to ensure the quality of drugs sold to consumers.

  Seven respondents believe creating an Offce 

                                                   of Generic Drgs would be beneficial
  believed it would not help, and six were unsure. Those who                             , thee

                                                                  thought such a move would    be
 beneficial argued that "elevating (the offce) gives it more prestige and attacts higher caliber
 employees. " Those respondents who were unsure about the effect of the move thought that it
 might help if it resulted in more or better staff
                                                  , but believed it would not the address the main
 need for standard operating procedures or guidelines. The respondents who feel the new

 offce wil not meet their concerns considered it "
                                                      window drssing.


 Seven respondents believe creating an FDA ombudsman would be helpful

 said it would not help, and two were unsure. One respondent who feels the, an  equal such
                                                                            creating  number

                                                                                           a

position would help meet his concerns argued that an ombudsman could serve as a "

release valve between FDA industr,                                                   pressure
                                     " but stressed that autonomy was critical.
respondent takng the view that an                                               Another

                                   ombudsman would not help stated
open door policy, the codfication of specifications and requirements, anUnless  you have an

                                                                         ombudsman is
meaningless. What is he going to ombuds?"

Most respondents believe that FDA should test samples of marketed drgs
reestablish consumer confidence in generic products. Several respondents ,emphasized
                                                                           if only to the
need for such testing to include innovator
                                          , or brand name , products.
Respondents suggested changes in FDA generic drug approval.

Some of the suggestions offered by respondents to improve FDA approval of generic products
were to:

             Develop more guidelines; codify and standardize specifc requirements. 


             of the respondents expressing this view want to see detailed specifications Some
                                                                                         for
             generic products, similar to those published now for approval of antibiotics.
              When a drg is coming off patent " said one respondent
                                                                        publish requirements
             in the Federal Register and let manufacturers comment on them.
  Develop standard operating proceduresforreviewers.   Respondents
  recommending this change wish to address what they see as the inconsistency of
  review and decision makng. Standard operating procedurs would diect
  reviewers in how to assess ANDAs, what to look for during review , and what
  constitutes an approvable or not approvable ANDA.

  Communicate more with industry.        Respondents suggesting this change desire
  more discussion of policy with industr as it is being developed, formal
  communication of policy to industr once it is adopted, more informal

  communication (e. g., telephone calls) with reviewers, availabilty of more

  information (e. g., alert list) to manufacturers, and development of a workable

  appeals process.


 Increase FDA staff 
  Respondents suggesting increased staff for ANDA review

 point to the increase in volume of submissions since 1984 and the need for the

 Agency to process submissions in a timely manner.


 Reorganize review structure.    Some respondents suggested increased use of field
 staff to conduct portions of the review , such as validating production
 equipment, and the conformty of the drg product with data in the ANDA.
 Another suggestion was to use the same reviewers to assess both NDAs and
 ANDAs for similar chemical compounds.
 Pre-approve drug master files.         Several respondents thought that drg master

 fies should be pre-approved,         and simply referenced in the ANDA , rather than a

 drg master          fie reviewed and approved for each separte application.


Revisit supplemental requirements and review.
                                                 Some respondents suggested
that FDA reconsider what changes merit a supplement or if such reviews could
be contracted out. One respondent said, " If a facility change affects 10
applications, make 1               supplemental, not 10.


Standardize and streamline labeling requirements.
                                                    Some respondents thought
that FDA should establish a " master" label for generic products. Others thought
FDA should allow manufacturers to submit samples of labels to be marked up by
reviewers, and then approve the label with changes to be incorporated in actual
production.

Increase management control of reviewers.
                                                           Some respondents suggested that
FDA should emphasize more the need for better supervision of reviewers, their
quality of work and productivity, to reduce the varances and inconsistency in
reVIew.
Hold to time frames. 
 Respondents thought that minor deficiencies should not
restart the review clock.
                                        ENDNOTES



1. Except in those instaces where a     manufacturer has an approved suitabilty petition to
     seek approval of a product that differs from the listed drg.

2. Testimony of Dr. Fran E. Young, M.    , Ph. D., former Commssioner of Food and
     Drugs, before the Subcommttee on Oversight and Investigations, Commttee on Energy
     and Commerce, U. S. House of Representatives, on July 11, 1989.


3. Offce    of Inspector General, Offce of Audit Services, Management Advisory Report:
     Vulnerabilties in the Food and Drug Administration s Generic Drug Approval Process,
       15- 89- 0051 , August 1989.


4. Fifteen manufactuers dicussed their professional experiences with investigational new
     drg and new   drg applications. For the results of these   discussions,   see Offce of
     Inspector Genera, Offce of Evaluation and Inspections, Perspectives of Drug
     Manufacturers: Investigational New Drug and New Drug Applications,"
     OEI- 12- 90- 00771, Februar 1990.

5.   See Food and Drug Administration , Office of the Commssioner, Offce of Planning and
     Evaluation,  Agency Impact Analysis: Fruit Juice, The Perceptions ofTen Firms, OPE
     Study 70, June 1984 , and Agency Impact Analysis: Salad Dressings, The Perceptions of
     Ten Firm," 
 OPE Study 64, May 1983.
..




                                 APPENDIX A


                      LISTING          OF    PARTICIPANTS


     Abbott Laboratories


     Amersham Corporation
     American Cyanamd Company
     Bar Laboratories
     Biocraft Laboratories
     Bolar Pharaceuticals
     Eli Lily and Company
       D. Searle & Company
     Geneva Generics
     Hoechst- Roussel Pharaceuticals, Inc.
     Hoffmann- La Roche, Inc.
     ICI Pharaceuticals Group
     Lemmon Company

     Lyphomed, Inc.
     Merck Shar & Dohme
     Mylan Laboratories
     Ortho Pharaceutical Corporation
     Pfizer Incorporated
     Roxane Laboratories, Inc.
     Rugby Laboratories, Inc.
     Sandoz Corporation
     Schein Pharaceutical,      Inc.
     Schering-Plough Corporation
     Smith, Kline, & French




                                            A - 1

  APPENDIX B



AGENCY COMMENTS

"'




     t8"C""

                 DEPARTMENT OF HEATH &. HUMAN SERVICES                Public Health Service
                 Foo and Dru Admnistration
                                                                      Memorandum
       Date      . February 9, 1990
       From      Acting Commissioner of Food and Drugs


       Subject   eIG Research on Perceptions of Drug Approval Processes


                 Inspector General



                 I want to thank your staff for sharing with FDA managers the

                 recent eIG research into the perceptions of pharmaceutical

                 executives regarding FDA' s new drug and generic drug approval

                 processes. In my prior FDA experience, I have always found
                 opinions and observations expressed by parties affected by FDA

                 to be a valuable source of feedback on agency performance.
                 FDA was particularly interested in industry perceptions about
                 the drug approval processes last Fall, and  'I
                                                              am pleased that
                 your staff was able to collect this information for us so soon


                 processes.
                 after Dr. Sullivan announced the various initiatives to
                 strengthen FDA' s drug review processes. This information gives
                 FDA a very helpful insight as we proceed to strengthen these

                 In addition to receiving the information itself, the process of

                 sharing this information in a workshop setting with your staff

                 was a positive experience. I look forward to more such

                 interactions and exchanges between our   staffs.
                                                     /t

                                                          S. Benson
                                                    fjs
.,               ..


                                                              feD

        FEB 2 7 199

                                 O"'1
                 , R p. \(USSe
     Richard f        Kusserow
     Inspector General


     OIG Final Reports , "Perspectives of Drug Manufacturers:
     Abbreviated New Drug Applications " OEI-12-90-00770 and
     "Perspectives of Drug Manufacturers: Investigational New Drug
     and New Drug Applications " OEI-12-90-00771

     James o. Mason , M. D.

     Assistant Secretary

       for Health


     Attached for your information are the above- referenced reports
     which discuss the findings from interviews conducted with
     officials at 24 drug manufacturing firms.  This survey was
     conducted to assess the perspectives of industry in regard to
     new and generic drug approval in the Food and Drug
     Administration (FDA).
     Respondents from 16 firms had experience with FDA' s review of
     abbreviated new drug applications (ANDAs). Respondents from 15
     firms had experience with FDA' s review of investigational new
     drug exemptions (INDs) and new drug applications (NDAs).
     FINDINGS
          Virtually all the respondents we interviewed believe that
          FDA is effective in ensuring that only safe and effective
          drugs enter the market. The 15 respondents who discussed
          FDA' s review of INDs and NDAs went on to say that they are
          generally satisfied with the decisions FDA reaches , the
          agency staff with whom they deal on their applications
          and the communication between their firms and the agency.

          The 16 respondents we interviewed concerning FDA' s review
          of ANDAs were generally dissatisfied with the agency
          performance. They were critical of FDA' s guidance
          communication , and decision making.
          Respondents in both categories identified inconsistency of
          FDA' s review of applications as their primary concern.
          Respondents felt that the information required on an
          application , and the amount and nature of evidence on
          safety and effectiveness required by the agency, differ
          according to reviewer and division.
          Respondents made a number of suggestions that they believe
          would improve agency performance if implemented. These
          suggestions are contained in the reports.
Page 2 - James O. Mason ,   M. D.


Our staff discussed the findings and manufacturer

recommendations contained in these reports with FDA officials

in January 1990. The FDA provided us with technical comments

to the reports , which we incorporated to clarify points made by

the respondents , and a written response to the reports which we

have attached.
Attachments
cc:
James S. Benson
Acting Commissioner of Food and Drugs
Prepared by: PThompson:   BMTelesford: 2-23-90
